Bursch Law PLLC

JOHN J. BURSCH
616.450.4235
jbursch@burschlaw.com

Attorney at Law

April 14, 2020
The Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543-0001
Re: No. 19-1186, Baker v. Edwards, et al.
Dear Mr. Harris:
Pursuant to Supreme Court Rule 37.2(a), Petitioner Joshua Baker hereby gives
blanket consent to the filing of amicus curiae briefs in support of either or of neither party
in the above-referenced case, with respect to the petition for writ of certiorari filed on March
27, 2020. Thank you for your assistance.
Sincerely,

John J. Bursch
Counsel for Petitioner
cc:

M. Malissa Burnette
Burnette Shutt McDaniel
912 Lady Street, 2nd Floor
Columbia, SC 29201
mburnette@burnetteshutt.law
Alice Chapman
Planned Parenthood Federation of America
1100 Vermont Ave, NW, Suite 300
Washington, DC 20005
alice-chapman@ppfa.org
Counsel for Respondents

BURSCH LAW PLLC
ATTORNEY AT LAW
9339 CHERRY VALLEY AVE SE, #78
CALEDONIA, MICHIGAN 49316 • WWW.BURSCHLAW.COM

